                                                        AUDIT 





                OFFICE OF
               INSPECTOR GENERAL
                U.S.DEPARTMENT OF THE INTERIOR




 INDEPENDENT AUDITORS' REPORT ON
 THE U.S. DEPARTMENT OF THE INTERIOR
 FINANCIAL STATEMENTS FOR FISCAL
 YEARS         2011        AND     2010




Report No.: X-IN-MOA-0006-20 I I                 November 20 I I
               OFFICE OF
               INSPECTOR GENERAL 

               U.S.DEPARTMENT OF THE INTERIOR


                                                                                  NOV 15 ,2011
Memorandum

To:            Secretary Salazar

From:          Mary L. Kendall
               Acting Inspector Genera

Subject:       Independent Auditors' Report on the U.S. Department of the Interior Financial
               Statements for Fiscal Years 2011 and 201 0
               Report No. X-IN-MOA-0006-2011

Introduction

       This memorandum transmits the KPMG LLP (KPMG) auditors ' report of the U.S.
Department ofthe Interior (DOl) financial statements for fiscal years (FYs) 2011 and 2010. The
Chief Financial Officers Act of 1990 (Public Law 10 1-576), as amended, requires the DOl
Inspector General or an independent auditor, as determined by the Inspector General, to audit the
DOl financial statements.

        Under a contract issued by DOl and monitored by the Office oflnspector General (OIG),
KPMG, an independent public accounting firm, performed an audit of the DOl FY2011 and
FY201 0 financial statements. The contract required that the audit be performed in accordance
with the "Government Auditing Standards," issued by the Comptroller General of the United
States and Office of Management and Budget Bulletin No. 07-04, "Audit Requirements for
Federal Financial Statements."

Results of Independent Audit

        In its audit report, KPMG issued an unqualified opinion on the DOl financial statements.
However, KPMG identified one material weakness and three significant deficiencies in internal
controls over financial reporting. In addition, KPMG identified two instances in which DOl did
not comply with laws and regulations, specifically, the Single Audit Act Amendments of 1996
and the Federal Financial Management Improvement Act of 1996.

        KPMG performed auditing procedures at Departmental Offices, Indian Affairs, Bureau of
Reclamation, National Park Service, U.S. Geological Survey, Bureau of Land Management, U.S.
Fish and Wildlife Service, Bureau of Ocean Energy Management, Regulation and Enforcement,
and Office of Surface Mining, Reclamation and Enforcement to support the DOl consolidated
financial statement audit.




                               Office of Inspector General I Washington, DC
Evaluation ofKPMG Audit Performance

       To ensure the quality of the audit work performed, the OlG:

       •	      reviewed KPMG's approach and planning of the audit;
       •	      evaluated the qualifications and independence of the auditors;
       •	      monitored the progress of the audit at key points;
       •	      coordinated periodic meetings with DOl management to discuss audit progress,
               findings, and recommendations;
       •	      reviewed KPMG's audit report; and
       •	      performed other procedures we deemed necessary.

        KPMG is responsible for the attached auditors' report, and the conclusions expressed in
it. We do not express an opinion on DOl financial statements nor on KPMG's conclusions
regarding the effectiveness of internal controls or compliance with laws and regulations.

Report Distribution

         The legislation creating the OlG requires semiannual reporting to the Congress on all
audit reports issued, actions taken to implement audit recommendations, and unimplemented
recommendations. Therefore, we will include a summary of the information contained in the
attached audit report in our next semiannual report. The distribution of the report is not
restricted, and copies are available for public inspection.

       We appreciate the cooperation and assistance of DOl personnel during the audit. lfyou
have any questions regarding the report, please contact me at 202-208-5745.

Attachments




                                                2

                                                                                           Attachment 1



                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389



                                         Independent Auditors’ Report


Secretary and Acting Inspector General,
U.S. Department of the Interior:


We have audited the accompanying balance sheets of the U.S. Department of the Interior (Interior) as of
September 30, 2011 and 2010, and the related statements of net cost, changes in net position, budgetary
resources, and custodial activity for the years then ended (hereinafter referred to as “financial statements”).
The objective of our audits was to express an opinion on the fair presentation of these financial statements.
In connection with our fiscal year 2011 audit, we also considered Interior’s internal control over financial
reporting and tested Interior’s compliance with certain provisions of applicable laws, regulations, contracts,
and grant agreements that could have a direct and material effect on these financial statements.


Summary

As stated in our opinion on the financial statements, we concluded that Interior’s financial statements as of
and for the years ended September 30, 2011 and 2010, are presented fairly, in all material respects, in
conformity with U.S. generally accepted accounting principles.

Our consideration of internal control over financial reporting resulted in identifying a deficiency that we
consider to be a material weakness and other deficiencies that we consider to be significant deficiencies, as
defined in the Internal Control Over Financial Reporting section of this report, as follows:

Material Weakness
A. Controls Over Contingencies

Significant Deficiencies
B. Information Technology Controls Over Financial Management Systems
C. Controls Over Undelivered Orders
D. Grant Monitoring Controls

The results of our tests of compliance with certain provisions of laws, regulations, contracts, and grant
agreements disclosed the following instances of noncompliance or other matters that are required to be
reported under Government Auditing Standards, issued by the Comptroller General of the United States,
and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal
Financial Statements, as amended:

E. Single Audit Act Amendments of 1996
F. Federal Financial Management Improvement Act of 1996




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
The following sections discuss our opinion on Interior’s financial statements; our consideration of
Interior’s internal control over financial reporting; our tests of Interior’s compliance with certain provisions
of applicable laws, regulations, contracts, and grant agreements; and management’s and our
responsibilities.


Opinion on the Financial Statements

We have audited the accompanying balance sheets of the U.S. Department of the Interior as of
September 30, 2011 and 2010, and the related statements of net cost, changes in net position, budgetary
resources, and custodial activity for the years then ended.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the U.S. Department of the Interior as of September 30, 2011 and 2010, and its net
costs, changes in net position, budgetary resources, and custodial activity for the years then ended, in
conformity with U.S. generally accepted accounting principles.

The information in the Management’s Discussion and Analysis, Required Supplementary Information, and
Required Supplementary Stewardship Information sections is not a required part of the financial
statements, but is supplementary information required by U.S. generally accepted accounting principles.
We have applied certain limited procedures, which consisted principally of inquiries of management
regarding the methods of measurement and presentation of this information. However, we did not audit this
information and, accordingly, we express no opinion on it.

Our audits were conducted for the purpose of forming an opinion on the financial statements taken as a
whole. The information in the Message From the Secretary, About This Report, Message From the Chief
Financial Officer, and Other Accompanying Information sections is presented for purposes of additional
analysis and is not required as part of the financial statements. This information has not been subjected to
auditing procedures and, accordingly, we express no opinion on it.


Internal Control Over Financial Reporting

Our consideration of the internal control over financial reporting was for the limited purpose described in
the Responsibilities section of this report and was not designed to identify all deficiencies in internal
control over financial reporting that might be significant deficiencies or material weaknesses and therefore,
there can be no assurance that all deficiencies, significant deficiencies, or material weaknesses have been
identified. However, in our fiscal year 2011 audit, we identified a deficiency in internal control over
financial reporting that we consider to be a material weakness and other deficiencies that we consider to be
significant deficiencies.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or combination of
deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis. We
consider the deficiency described below to be a material weakness.




                                                       2

A.	 Controls Over Contingencies

Interior should improve controls to ensure contingencies for asserted and unasserted litigation, claims, and
assessments (i.e., matters) are promptly and accurately recorded or disclosed and properly classified.
Interior prepares a summary letter for each matter that Interior used to determine the estimated contingent
liabilities reported on the balance sheet and estimated potential losses disclosed in the notes to the financial
statements; however, Interior did not consistently prepare the summary letters because the progress of the
case noted in the summary letter was not consistent with the government’s response, outcome of the
matter, and estimated range of loss documented in the summary letters for certain matters. In addition,
Interior did not consistently update the outcome of the matter and estimated range of loss documented in
the summary letters for progress that occurred.

Interior did not consistently prepare and update the summary letters because individuals responsible for
preparing and updating the summary letters had limited time due to competing priorities and management
did not effectively review the summary letters. As a result, the summary letters understated the contingent
liabilities reported on the balance sheet by approximately $855 million, understated the estimated upper
end of the range of loss for probable matters by approximately $813 million, overstated the estimated
lower end of the range of loss for reasonably possible matters by approximately $954 million, and
overstated the estimated upper end of the range of loss for reasonably possible matters by approximately
$976 million. In response to our findings, Interior corrected the summary letters and adjusted the
contingent liabilities reported on the balance sheet and estimated potential losses disclosed in the notes to
the financial statements.

Recommendations
We recommend that Interior improve controls over contingencies for asserted and unasserted litigation,
claims, and assessments as follows:
1.		 Dedicate sufficient resources to prepare, update, and review the summary letters.
2.		 Provide training to summary letter preparers and reviewers on what should be documented in the
     summary letters, when to designate a matter as probable versus reasonably possible or remote, and the
     need to consistently prepare all sections of the summary letters.
3.		 Continue to have finance team members review the summary letters and meet with the solicitor’s
     office to discuss matters.
4.		 Require managers to review the summary letters to ensure that the summary letters are updated and
     that all sections of the summary letter are consistent and document evidence of their review.

Management Response
Management has prepared an official response presented as a separate attachment to this report. In
summary, management agreed with our findings and its comments were responsive to our
recommendations.

A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less
severe than a material weakness, yet important enough to merit attention by those charged with
governance. We consider the deficiencies described below to be significant deficiencies.




                                                       3

B.	 Information Technology Controls Over Financial Management Systems

Interior did not have adequate information technology controls to protect its financial management systems
as required by OMB Circular No. A-130, Management of Federal Information Resources. These
conditions could affect Interior’s ability to prevent and detect unauthorized changes to financial
information, control electronic access to sensitive information, and protect its information resources.
Although Interior has improved its application and general controls, Interior should continue improving the
information technology controls over its financial management systems, as discussed below.

1.		 Access Controls
     Access controls protect financial and sensitive information from unauthorized modification, disclosure,
     and loss; however, Interior did not fully establish controls to prevent and detect unauthorized access.
     One Interior component had user access policies that were not consistent with Interior’s Department-
     wide guidance. In addition, Interior did not consistently approve user access before granting access,
     document review and approval of user access, recertify user access, and maintain user access
     documentation for six applications. Interior also did not consistently remove terminated users’ access to
     six applications timely. Furthermore, Interior did not establish controls over contractor access to
     applications. Additionally, Interior did not limit access to audit log configuration to appropriate
     personnel for one application. Finally, Interior did not consistently configure applications to prepare
     audit logs, review audit logs, or document that audit log reviews were completed for two applications.

2.		 Configuration Management
     Configuration management controls ensure that only authorized programs and modifications are
     implemented. Interior did not restrict access to appropriate personnel for one application. In addition,
     Interior did not consistently maintain test documentation for changes made to two applications and did
     not maintain an inventory of changes for another application. Furthermore, Interior did not effectively
     segregate responsibilities for testing and migrating changes in one application. Finally, Interior did not
     fully segregate conflicting user responsibilities in three applications.

3.		 Service Continuity
     Service continuity plans protect information resources, minimize the risk of unplanned interruptions,
     and recover critical operations should interruptions occur. Interior did not have a formal approved
     contingency plan for one application.

Recommendations
We recommend that Interior continue to improve the information technology controls over its financial
management systems to ensure adequate security and protection of the systems as follows:
1.		 Issue consistent user access policies, approve user access before granting access, document review and
     approval of user access, recertify user access, maintain user access documentation, remove access for
     terminated users, establish controls over contractor access to applications, limit access to audit log
     configuration, prepare audit logs, review audit logs, and document audit log reviews.
2.		 Restrict application access to appropriate personnel, maintain test documentation for changes made to
     applications, maintain an inventory of changes, and segregate responsibilities.
3.		 Finalize and approve the contingency plan.

Management Response
Management has prepared an official response presented as a separate attachment to this report. In
summary, management agreed with our findings and its comments were responsive to our
recommendations.



                                                      4

C.	 Controls Over Undelivered Orders

Interior obligates its budgetary resources when placing orders with other federal entities and public
organizations and reduces the order balances as goods and services are received. Interior policies require
Interior components to review and certify undelivered orders quarterly and to de-obligate invalid
obligations. Although Interior has improved compliance with its policies, Interior should continue
improving the effectiveness of the review and certification procedures because Interior incorrectly certified
undelivered orders of approximately $52 million. In addition, Interior did not review and approve 3 of the
45 de-obligation transactions tested. Finally, Interior recorded invalid recoveries or did not record
recoveries of undelivered orders timely for approximately $49 million. As a result of our observations,
Interior analyzed and adjusted its undelivered orders and recoveries.

Recommendations
We recommend that Interior improve controls over its undelivered orders as follows:
1.		 Provide training to program and finance personnel on certifying and closing out undelivered orders and
     review and approval of de-obligation transactions.
2.		 Improve the effectiveness of the review and certifications of undelivered orders.
3.		 Monitor and close out, as appropriate, undelivered orders with minimal to no activity during the past
     three months, on at least a quarterly basis.
4.		 Analyze system-generated recoveries to ensure that the transactions are valid recoveries.

Management Response
Management has prepared an official response presented as a separate attachment to this report. In
summary, management agreed with our findings and its comments were responsive to our
recommendations.

D.		 Grant Monitoring Controls

Interior should improve controls over grant monitoring as Interior is required to monitor its grantees in
accordance with the Single Audit Act Amendments of 1996, the related OMB Circular No. A-133, Audits of
States, Local Governments, and Non-Profit Organizations (OMB Circular No. A-133), and other laws.
Interior did not have a complete listing of grant awards or grantees to ensure that it monitored grantees,
obtained single audit reports, and issued management decisions on audit findings. In addition, Interior did
not clearly define and communicate grant monitoring responsibilities. As a result, Interior did not obtain
single audit reports within nine months of the grantee’s fiscal year-end for 5 of 58 grantees tested and did
not issue management decisions on audit findings within six months after receipt of single audit reports for
3 of the 58 grantees tested. Interior also did not obtain or follow up on past due financial, narrative, and
progress reports for 10 of the 64 grantees tested. Finally, Interior did not review 4 of the 44 grantees’
financial reports tested.

Recommendations
We recommend that Interior improve its grant monitoring process as follows:
1.		 Maintain a complete and accurate listing of grantees to enable monitoring of grantees, receipt of single
     audit reports, and issuance of management decisions on findings.
2.		 Revise the grant monitoring policies and procedures to clearly define who is responsible for following
     up on single audit reports not received and issuance of management decisions on findings.
3.		 Communicate the updated grant monitoring policies and procedures to those responsible for
     implementing such policies and procedures.




                                                      5

4.	 Issue management decisions on audit findings within six months after receipt of single audit reports
     and verify that grantees take appropriate and timely corrective action.
5.		 Follow up on single audit, financial, narrative, and progress reports not received and consider the need
     to limit future grant awards until these reports are received.
6.		 Review the financial reports that are received.

Management Response
Management has prepared an official response presented as a separate attachment to this report. In
summary, management agreed with our findings and its comments were responsive to our
recommendations.

Exhibit I presents the status of prior year significant deficiencies. We noted certain additional matters that
we will report to management of Interior in a separate letter.

Compliance and Other Matters

The results of certain of our tests of compliance as described in the Responsibilities section of this report,
exclusive of those referred to in the Federal Financial Management Improvement Act of 1996 (FFMIA),
disclosed one instance of noncompliance or other matters that are required to be reported herein under
Government Auditing Standards or OMB Bulletin No. 07-04, and are described below.


E.		 Single Audit Act Amendments of 1996

As discussed in the Internal Control Over Financial Reporting section of this report, Interior did not
perform adequate monitoring of grantees in accordance with the Single Audit Act Amendments of 1996, the
related OMB Circular No. A-133, and other laws. Interior did not consistently obtain and review financial,
narrative, progress, and single audit reports, issue management decisions on audit findings, and monitor
grantees timely.

Recommendation
We recommend that in fiscal year 2012, Interior obtain financial, narrative, progress, and single audit
reports, issue management decisions on audit findings, and monitor grantees to ensure compliance with the
Single Audit Act Amendments of 1996, the related OMB Circular No. A-133, and other laws.

Management Response
Management has prepared an official response presented as a separate attachment to this report. In
summary, management agreed with our findings and its comments were responsive to our
recommendations.

The results of our other tests of compliance as described in the Responsibilities section of this report,
exclusive of those referred to in FFMIA, disclosed no instances of noncompliance or other matters that are
required to be reported herein under Government Auditing Standards or OMB Bulletin No. 07-04.

The results of our tests of FFMIA disclosed instances, described below, where Interior’s financial
management systems did not substantially comply with applicable Federal accounting standards. The
results of our tests of FFMIA disclosed no instances in which Interior’s financial management systems did
not substantially comply with Federal financial management systems requirements and the United States
Government Standard General Ledger at the transaction level.



                                                      6

F. Federal Financial Management Improvement Act of 1996

Interior is required to prepare its financial statements in accordance with applicable Federal accounting
standards. As discussed in the Internal Control Over Financial Reporting section of this report, we
identified a material weakness related to controls over contingencies that affected Interior’s ability to
prepare its financial statements in accordance with Federal accounting standards. As a result of these
deficiencies, Interior’s financial management systems did not substantially comply with the applicable
Federal accounting standards.

Recommendation
We recommend that in fiscal year 2012, Interior improve its internal controls over contingencies to ensure
that Interior’s financial management systems comply with the Federal accounting standards.

Management Response
Management has prepared an official response presented as a separate attachment to this report. In
summary, management agreed with our findings and its comments were responsive to our
recommendation.

                                               *******

Responsibilities

Management’s Responsibilities. Management is responsible for the financial statements; establishing and
maintaining effective internal control; and complying with laws, regulations, contracts, and grant
agreements applicable to Interior.

Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year 2011 and 2010
financial statements of Interior based on our audits. We conducted our audits in accordance with auditing
standards generally accepted in the United States of America; the standards applicable to financial audits
contained in Government Auditing Standards, issued by the Comptroller General of the United States; and
OMB Bulletin No. 07-04. Those standards and OMB Bulletin No. 07-04 require that we plan and perform
the audits to obtain reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes consideration of internal control over financial reporting as a basis for
designing audit procedures that are appropriate in the circumstances, but not for the purpose of expressing
an opinion on the effectiveness of Interior’s internal control over financial reporting. Accordingly, we
express no such opinion.

An audit also includes:
•		  Examining, on a test basis, evidence supporting the amounts and disclosures in the financial
     statements;
•		  Assessing the accounting principles used and significant estimates made by management; and
•		  Evaluating the overall financial statement presentation.

We believe that our audits provide a reasonable basis for our opinion.




                                                     7

In planning and performing our fiscal year 2011 audit, we considered Interior’s internal control over
financial reporting by obtaining an understanding of Interior’s internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of controls as a
basis for designing our auditing procedures for the purpose of expressing our opinion on the financial
statements, but not for the purpose of expressing an opinion on the effectiveness of Interior’s internal
control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of
Interior’s internal control over financial reporting. We did not test all controls relevant to operating
objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

As part of obtaining reasonable assurance about whether Interior’s fiscal year 2011 financial statements are
free of material misstatement, we performed tests of Interior’s compliance with certain provisions of laws,
regulations, contracts, and grant agreements, noncompliance with which could have a direct and material
effect on the determination of the financial statement amounts, and certain provisions of other laws and
regulations specified in OMB Bulletin No. 07-04, including the provisions referred to in Section 803(a) of
FFMIA. We limited our tests of compliance to the provisions described in the preceding sentence, and we
did not test compliance with all laws, regulations, contracts, and grant agreements applicable to Interior.
However, providing an opinion on compliance with laws, regulations, contracts, and grant agreements was
not an objective of our audit and, accordingly, we do not express such an opinion.

                                   ______________________________


Interior’s response to the findings identified in our audit are presented as a separate attachment to this
report. We did not audit Interior’s response and, accordingly, we express no opinion on it.

This report is intended solely for the information and use of Interior’s management, Interior’s Office of
Inspector General, OMB, the U.S. Government Accountability Office, and the U.S. Congress and is not
intended to be and should not be used by anyone other than these specified parties.




November 15, 2011




                                                     8

                                                                                                  Exhibit I


                           U.S DEPARTMENT OF THE INTERIOR
                                     Status of Prior Year Findings
                                         September 30, 2011


FY2010
 Ref          Fiscal Year 2010 Finding                         Status of Fiscal Year 2010 Findings

  A      Information Technology Controls                This condition has not been corrected and is
         over Financial Management Systems              repeated in fiscal year 2011. See finding B.

  B      Controls over Undelivered Orders               This condition has not been corrected and is
                                                        repeated in fiscal year 2011. See finding C.

  C      Monitoring Legislation                         This condition has been corrected.

  D      Grant Monitoring Controls                      This condition has not been corrected and is
                                                        repeated in fiscal year 2011. See finding D.

  E      Anti-deficiency Act                            This condition has been corrected.

  F      Single Audit Act Amendments of 1996            This condition has not been corrected and is
                                                        repeated in fiscal year 2011. See finding E.

  G      Prompt Payment Act                             This condition has been corrected.




                                                  9


                                                                                    Attachment 2

                  United States Department of the Interior
                                 OFFICE OF T HE SECRETARY 

                                    Washington , DC 20240 



                                         NOV 1 4 2011
Memorandum

To: 	         Mary L. Kendall
              Acting Inspector General

              KPMG LLP



From:         Rhea Suh
              Assistant ecretary      olicy, Management and Budget and
              Chief Financia l Officer

Subject:      Management's Response to Independent Auditors' Report for Fiscal Year 20 11
              (Assignment No. X-IN-MOA-0006-20 II )

T he Department of the Interior has reviewed the draft Auditors' Report prepared by KPMG LLP.
We are pleased that the result of the audit is an unq ualified op ini on on the Department's
Consolidated Financia l S tatements. The Department appreciates the recognition noted of the
progress we have achieved during Fiscal Year (FY) 20 II in further improving our financia l
management. We also app reciate the additional recommendations and notes of the audi tors. We
look forward to work ing w ith you to continue improving financ ial management in the
Department. Our response to the findings and recommendations follow.

INTERNAL CONTROL OVER FINANCIAL REPORTING

Material Weakness

A. Controls over Contingencies

   Management concurs. A Department-wide corrective action plan is being implemented to
   ensure that contingencies for asserted and unasserted litigation, claims, and assessments are
   promptly and accurately recorded or disclosed and properly classified. Interior is taking
   action to provide traini ng on the effective and consistent completion of case summari es,
   ensure reviews of case summaries are completed timely and thoroughl y and establish
   effective communication chan nels between the Department, the Solicitor, and the bureaus.
   As a result, the Departme nt' s process for reviewing contingencies for asserted and unasserted
   litigation, claims, and assessments wi ll be strengthened and communication between the
   Department, the Solicitor, and the components responsible for monitoring and recording each
   claim will be enhanced.
Significant Deficiencies

B. Information Technology Controls over Financial Management Systems

   Management concurs. During FY 2011 Interior continued to improve its information
   technology controls including policies and guidance. In FY 2012, we will continue to
   enhance application and general controls over financial management systems with a specific
   focus on the areas of access controls, configuration management, and service continuity. We
   strive to improve and strengthen the related programmatic aspects of Information
   Technology (IT) security programs (including awareness training) and will continue to
   review all aspects of the IT program for refinement. We are in the process of implementing
   reforms including the consolidation of information technology infrastructure, management,
   and oversight that will improve the efficiency and effectiveness of IT services and our ability
   to ensure the implementation of policies and controls.

C. Controls over Undelivered Orders

    Management concurs. Interior and its components will continue to enhance its controls
    over undelivered orders (UDO). We will continue to improve the quarterly review and
    certification process and provide training over certifying and closing aged and completed
    UDO's. We will also analyze the treatment of expired orders in order to develop effective
  · modification procedures. Additionally, we will evaluate our process for analyzing system­
    generated recoveries to ensure the appropriateness of those transactions. Management is
    committed to bringing its components together to address the deficiencies noted in an
    integrated and consistent manner.

D. Grant Monitoring Controls

   Management concurs. Management will continue to improve grantee communication and
   outreach procedures to yield a timelier and more effective single audit recipient and follow­
   up process. The Department and its components will enhance its system for maintaining an
   inventory of grantees to provide a more robust means for monitoring grantees and ensure
   receipt of single audit, financial status, and grant performance reports. Interior will continue
   to work with the components to ensure that all necessary reports are obtained and that
   management decisions on audit findings are issued in a timely and compliant manner. In FY
   2012 Interior will also evaluate its grant monitoring policies and processes to ensure that
   grant monitoring roles and responsibilities are properly defined and communicated.

COMPLIANCE AND OTHER MATTERS

E. Single Audit Act Amendments of1996

   Management concurs. As noted in the Grant Monitoring Controls section above, the
   Department will work to obtain single audit, financial status, grant performance, and annual
   reports in a timely manner. Enhancements will continue to be made to the business process
   for complying with the Single Audit Act Amendments o.f 1996.
F. Federal Financial Management Improvement Act of1996

   Management concurs. As noted in the Controls over Contingencies section above, the
   Department is implementing procedures to ensure the effective and timely review of
   contingencies for asserted and unasserted litigation, claims, and assessments. As a result, the
   Department's process for reviewing and recording contingencies for asserted and unasserted
   litigation, claims, and assessments will be strengthened.

In closing, I would again like to thank your offices for their contributions to a strong and ever
improving internal control environment within the Department. Interior is committed to the
prompt resolution of the deficiencies that have been identified. Corrective action plans are being
developed and implemented for each of these findings, and plans will be monitored and tracked
through completion.
